t

J

No. 21-

cJ oT /T: S
IN THE
Supreme Court of the United States

In re Jim Washington

On Petition for Writ of Certiorari to the
United States Court of Appeals
For the Fourth Circuit

PETITION FOR WRIT OF CERTIORARI

Jim Washington
209 Signet Drive
Eutawville, S.C. 29048
WTS Transport, LLC@yahoo.com
803-496-4655
Petitioner, Pro Se
Dated: August 1, 2021

Supreme Court. U.S.
FILED

AUG 0 3 2021
OFFICE OF THE CLERK

■•v

i
QUESTIONS PRESENTED
1.

Whether a court of appeals failure to grant a first and second amended petition for writ
of mandamus conflicts with this court and other court of appeals precedents when it
based on a standard less than the Cheney mandated_three prong inquiry test.

2. Whether certiorari is an appropriate remedy to seek immediate relief to enjoin the
orders of a court of appeals that have the practical effect of denying request for stay
and injunctive relief.

ii
PARTIES TO THE PROCEEDINGS AND RULE 29.6 DISCLOSURE STATEMENT
Petitioner, Jim Washington e-mail address WTS Transport, LLC@yahoo.com is
plaintiff in the district court and was petitioner-appellant in the U.S. Fourth Circuit Court
of Appeals.

Washington, (WTS Transport, LLC) is a privately owned transportation

company in the business of transporting goods nationally for contractors.

Washington

, is owner of WTS Transport, LLC a limited liability cofnpany duly organized under the
laws of the State of South Carolina on July 15, 2011 with a duration at will which was
issued a certificate of existence by the Secretary of State.

This business is no longer

operating.
Respondents are Defendant Trident Medical Center, LLC, and U.S. District Court,
Charleston Division, for the district of South Carolina.
Pursuant to Supreme Court Rule 29.6, Petitioner Jim Washington, (WTS Transport,
LLC) certifies that it is no longer in operation and without asset.
RELATED PROCEEDINGS
United States District Court (S.C.):
Jim Washington v. Trident Medical Center, LLC, No. 2:20-cv-00953-RMG-MGB(February 16,2021)
Jim Washington v. Trident Medical Center, LLC, No. 2:20-cv-00953-RMG-MGB(January 28, 2021)
Jim Washington v. Trident Medical Center, LLC, No. 2:20-cv-00953-RMG-MGB(January 29, 2021)
Jim Washington v. Trident Medical Center, LLC, No. 2:20-cv-00953-RMG-MGB(January 11, 2021)
United States Court of Appeals for the Fourth Circuit
In re Jim Washington, No. 21-1045( May 4, 2021)

iii
Jim Washington v. Trident Medical Center, LLC, No. 21-2196(May 4, 2021)
Jim Washington v. Trident Medical Center, LLC, No. 21-1296(April 14, 2021)
In re Jim Washington, No. 21-1045(March 23, 2021)
In re Jim Washington, No. 21-1045(March 23, 2021)
In re Jim Washington, No. 21-1045(March 23, 2021)
Jim Washington v. Trident Medical Center, LLC, No. 21-1296(March 18, 2021)

iv
TABLE OF CONTENTS
QUESTIONS PRESENTS
PARTIES TO THE PROCEEDINGS AND RULE 29.6 DISCLOSURE
ii
STATEMENT.
ii-iii

RELATED PROCEEDING

iv

TABLE OF CONTENTS

viii-ix

TABLE OF AUTHORITIES
PETITION FOR WRIT OF CERTIORARI

1
1

DECISIONS BELOW.

1

JURISDICTION
RELEVANT STATUTORY PROVISIONS.
STATEMENT.

2
2

I.

Statement of the issues.

II.

Factual Background

2-7

7-10

V

REASONS FOR GRANTING THE PETITION

I.

A.

A.

10

The Fourth Circuit denial of the motion for leave to file a first and second
amended petition for writ of mandamus was wrong. The Panel wrongly
ruled on the second amended petitions because they fail to consider
the second amended petition no available remedy, clear and indisputable
right and appropriate of the writ under the totality of circumstances...13.
Once the motion for leave to file a second amended Petition for Writ of
Mandamus was filed it should have been submitted to the Panel toget­
her with the first amended petition for a single ruling based on the
Cheney's three prong standard
10-14.

II.

The Fourth Circuit Court of Appeals denying Rehearing Conflicts with this Court
and other Circuits Court of Appeals precedents when it employed a test that is
10-15
less than the mandated Cheney's three part inquiry,

III.

The Fourth Circuit Court of Appeals decisions denying Rehearing has the Practical
Effect of denying Stay and Injunction relief making Certiorari an Appropriate
20, 22, 24, 25, 26
Remedy for Immediate Relief.

vi
CONCLUSION
APPENDIX

26
la

Order of the U.S. Court of Appeals for the Fourth Circuit(May 4, 2019)
Denying rehearing the petition for writ of mandamus.........................
Order of the U.S. Court of Appeals for the Fourth Circuit(May 4, 2019)
Denying rehearing motions for stay and injunctive relief......................
Order of the U.S. Court of Appeals for the Fourth Circuit((April 14, 2021)
Order denying motion for stay of the appeal proceeding.........................

la

2a

3a

Judgment of the U.S. Court f Appeals for the Fourth Circuit(March 23, 2019)....4a
Per Curiam Opinion of U.S. Court of Appeals for the Fourth Circuit(March 23, 2021)
Opinion denying first amended petition for writ of mandamus
5a
Order of the U.S. Court of Appeals for the Fourth Circuit(March 23, 2019)
Order denying motion for leave to file a second amended petition for writ
of mandamus...............................................................................................

6a

Unpublished opinion of U.S. Court of Appeals for the Fourth Circuit(March 23, 2019)..7a
Order of the U.S. Court of Appeals for the Fourth Circuit(March 18, 2021)
Order docketing the appeal and schedule informal briefing......................
Order of the U.S. District Court of S.C.(January 28, 2021)
Order and Opinion of the U.S. District Court fS.C. denying reconsideration
Judgment of the U.S. District Court of S.C,
Report and Recommendation of U.S. District Court Magistrate Judge
Order of State of S.C. Court of Common Pleas(March 18, 2019)
Order denying Plaintiff Motion to Alter/Amend Judgment........
Order of State of S.C. Court of Common Pleas(February 14, 2019)
Order denying Plaintiff Motions to vacate judgment and motion to amend
Pleadings......................................................................................................

,8a-9a

10a-17a
18a
19a-33a

36a-37a

38a-41a

vii
Decision of the CQU.rt.of.common-pleas-to contacbhis-law clerk~for further Question....42a

viii
TABLE OF AUTHORITIES
Abbott v. Perez. 138 S. Ct. 2305(2018)

5, 6, 20

Ashcroft v. Iqbal. 556 U.S. 662.129 S. Ct. 1937(2009)

9,15

Bell Atl. Corp. v. Twomblv, 550 U.S. 544,127 S. Ct. 1955(2007)

9,15

Camp v. Pitts. 411U.S. 138, 139-143, 93 S. Ct. 1241, 36 L. Ed.2d 106(1973)

17

Carson v. American Brands. Inc.. 450 U.S. 79.101 S. Ct. 993. 67 L. Ed.2d 59(1981)...6.17.21.22-26
Cheney v. United States Dist. Court for D.C., 542 U.S. 367,124 S. Ct. 2576.
159 L. Ed.2d 459(2004)
3, 4,11,13, 14,15,16,17,19, 20
Citizens to Preserve Overton Park, Inc, v. Volpe, 401 U.S. 402, 91 S.Ct. 814, 28 L. Ed.2d
136(1971)
Hollingsworth v. Perry. 558 U.S. 183.130 5. Ct. 705.175 L. Ed.2d 657(2010)
In re Al Baluchi. 952 F.3d 363(D.C. Cir. 2020)
In re Clinton, 973 F.3d 106(D.C. Cir. 2020)

19, 20
18

In re Trump. 958 F.3d 274(4th Cir. 2020)

4,18

In re United States. 138 S. Ct. 443(2017)

5,17

In re United States. 139 S. Ct. 452(2018)

5, 6,16, 26

5, 6, 7, 25, 26

Los Angeles v. Lyons, 461 U.S. 95.103 S. Ct. 1660, 75 L. Ed.2d 675(1983)

21, 26

17

ix
Matter of Forty-Eight Insulators, inc.. 115 F.3d 1294(3rd Cir. 1994)

22, 24

Mcdonnel Douglas Company, Inc, v. Green. 411 U.S. 792(1973)

7

Reeve v. Sanderson Plumbing Company, Inc., 530 U.S. 133(2000)

6

Roche v. Evaporated Milk Ass'n.. 319 U.S. 21. 63 S. Ct. 938. 87 L. Ed. 1185(1943)....16
Rota-McLartv v. Santander Consumer USA, Inc., 700 F.3d 690(4th Cir. 2012)

20

Salazar ex rel. Salazar v. District of Columbia. 671 F.3d 1258.1261-1267(D.C. Cir. 2012)....25, 26
Sample v. Ballard. 860 F.3d 266(4th Cir. 2017)

13,14

Sampson v. Murray. 415 U.S. 61. 94 S. Ct. 937, 39 L. Ed2d 166(1974)

5

SAS Institute. Inc, v. World Programming Ltd., 952 F.3d 513(4th Cir. 2020)
Spokeo, Inc, v. Robins, 136 S. Ct. 1540(2016)

25

U.S. v. George, 971 F.2d 1113,1117-1118(4th Cir. 1992)

13,14

Statutes and Rules

13,14

28 U.S.C. statute 636(b)(1)

1

28 U.S.C. statute 1254(1)
28 U.S.C. statute 1292(a)(1)

24

28 U.S.C. statute 1651

1,2

Fed. R. Civ. P. 72

13, 14

26

1
.PETITION.FOR A WRIT.OFCERTIORARI
Petitioner Jim Washington (Washington) respectfully petitions for a writ of certiorari
to review the orders of the United States Court of Appeals for the Fourth Circuit.
DECISIONS BELOW
The Fourth Circuit issued its orders on petitioner's motions for first and second
amended petition for writ of mandamus on March 23, 2021.
are reproduced at App. 4a-6a.

A copy of the opinion and order

The Fourth Circuit denial of Washington's petition for

rehearing petition for writ of mandamus, rehearing motions for stay appeal and injunction,
entered on may 4, 2021 are reproduced at App. la-2a.
The district court's orders and report and recommendation are reproduced at App. 10a33a.
JURISDICTION
The U.S. Court of Appeals for the fourth Circuit issued its final opinion and order on
March 23, 2021 and its denial of the petition for rehearing and motions for rehearing stay of
the appeal and injunction was entered on May 4, 2021.

The jurisdiction of this Court is

invoked under 28 U.S.C. statute 1254(1) and 28 U.S.C. statute 1651.

2
RELEVANT STATUTORY PROVISION
Excerpts from the All Writs Act
28 U.S.C. statute 1651. Writs
(a)

The Supreme Court and ail courts established by Acts of Congress may issue all writs
necessary or appropriate in aid of their respective jurisdictions and agreeable to the
usage and principles of law.
STATEMENT

I.

Statement of the Issues.
This case concerns power of an appellate court to issue the extraordinary relief
of mandamus, as a last resort to compel a trial court to rule on allegations in the
complaint and to develop its record in aid of appellate jurisdiction because the trial
court ruling and failure to rule created exceptional circumstances thwarting
appellate review.

This case concerns a trial court that issued its orders in manifest

bad faith to insulate its order from appellate review and the court of appeals fail to
take corrective action leaving a litigant without an adequate remedy on appeal to
get relief for his claims in the complaint.
First the Fourth Circuit panel in its March 23, 2021 opinion wrongly relied solely
on the first amended petition for writ f mandamus as a basis for its decision without
also considering the motion for leave to file a second amended petition for writ of
mandamus because the second amended petition requesting the writ was clarifying
the basis for the appropriateness of the writ based on the subsequent development

3
after the district court issued its orders.

Thus based on the three prong mandated

inquiry standard under, Cheney v. United States District Court for D.C., 542 U.S. 367,
380-381.124 S. Ct. 2576.159 L. Ed.2d 459(2004). the Fourth Circuit wrongly denied
mandamus relief to petitioner in his second amended petition which must analyze
the all three prong to issue the writ.

The Fourth Circuit per curiam opinion

analyzed the appropriate of the writ under a standard less than the Cheney's three
prong mandated test by not considering the second amended petition for writ of
mandamus together with the first amended petition by simply ruling that
"Washington petition this court alleging that the district court has unduly delayed
acting on his 42 U.S.C. statute 1983 action. He seeks an order from this court
directing the district court to act.

Our review of the district court docket reveals

that the district court dismissed Washington's second amended complaint on
January 28, 2021. Accordingly, because the district court has recently decided
Washington's case, we deny the mandamus and amended mandamus petition as
moot." App. 4a-6a.
Second, the Fourth Circuit second order issued on the same day but
separately issued which denies the second amended petition for writ of mandamus
is wrongly decided because it suffer from the same or similar flaw because it is
based on a standard that is less than the Cheney's three prong standard for
appropriateness to issue the writ by its decision which states that "After the district
court entered judgment and denied post-judgment relief in the

4
underlying matter, petitioner filed a notice of appeal in the district court and a
motion for leave to filed a second amended mandamus petition in this court. The
motion for leave to file a second amended mandamus petition is denied without
prejudice to petitioner's appeal in this case" because it fail to consider petitioner's
request for relief was base on the ground the writ was appropriate because the
district court issued its orders in manifest bad faith to insulate its orders from
appellate review without a well develop record, refused to discuss petitioner's
objections further which evades appellate jurisdiction to review on appeal. App. 4a6a; 216a-229a. Cheney v. United States District Court for D.C., 542 U.S. 367, 380-381,
124 S. Ct. 2546.159 L. Ed.2d 459(2004):ln re Trump. 958 F.3d 274(4th Cir.2020).
Third the Fourth Circuit orders denying rehearing petition for writ of
mandamus, rehearing motion for stay and injunction based on its enforcement of its
local procedural rule 27(b) to dispose of substantive issues conflict with this Court
and other court of appeals precedent by its arbitrary use which alter the right,
remedy and decision.

The Fourth Circuit practice to authorize the clerk of court to

rule on motions filed by litigants under its local rule prevents a litigant from getting a
ruling from the three judges panel and litigants who have been previously denied
motions such as petitioner's motion for leave to file a second amended petition for
writ of mandamus, motion for stay and injunction by orders of the clerk of court
adverse ruling are once again at the clerk of court discretion subject to another
procedural ruling from the clerk of court on substantive issues in their motion rather

5
than a ruling from the panel which affects the rights, remedy and tRFdecision on the
merit and conflicts with this Court precedents. App. la-2a; 133a-153a; 186a-200a;
203a-213a. See Hollingsworth v. Perry, 558 U.S. 183,130 S. Ct. 705, 706-715,175 L.
Ed.2d 657(2010); See also In Re United States, 139 S. Ct. 452, 453(2018): See In re
United States. 138 S. Ct. 443(2017).

Petitioner's substantive rights, remedy and a

decision from the panel were lost by court of appeals practice of its procedural rule
which conflicts with the above cited precedents of this Court.
Fourth the Fourth Circuit ruling on petitioner's motions for stay has the
practical effect of denying stay and injunction relief which conflicts with this Court's
precedent because of petitioner's request for these relief and the combination of
the court of appeals rulings in denying petitioner's requested relief has the practical
effect of denying stay and injunction even though the labels attach to the denial
orders do not specifically say denial of motions for stay and injunction but it in effect
refuse to stay the appeal proceeding, fail to enjoin the district court from engaging
in any future misconduct made in manifest bad faith to insulate its orders from
appellate jurisdiction causing irreparable injury without a well develop record and
findings of allegations in the second amended complaint alleging a conspiracy to
cover-up a 2/4/19 Memorandum of law to violate petitioner's federal constitutional
right to procedural due process to present his objections and be heard. App. la-7a;
133a-229a. See Abbott v. Perez. 138 S. Ct. 2305, 2319-2321(2018); See also
Sampsonv. Murray. 415 U.S. 61. 86-88. 94 S. Ct. 937. 39 L. Ed.2d 166(1974); See

6
Carson v. American Brands, Inc., 450 U.S. 79, 81-83.101 S. Ct. 993, 67 L. Ed.2d

59(1981).
Fifth the Fourth Circuit orders denying stay and injunction are immediately
appealable to this Court because petitioner would suffer irreparable injury to
proceed on appeal without granting a stay and injunction of the appeal proceedings
without an adequate well develop record and adequate findings on the merit of his
constitutional claims leaving petitioner without an adequate remedy for appellate
review. App. la-7a; 133a-229a. See In re United States. 139 S. Ct. 452, 453(2018);
see also Hollingsworth v. Perry, 558 U.S. 183.130 S. Ct. 705. 710-715(2010). Thus
the court of appeals orders denying stay and injunction are immediately appealable
to avoid irreparable injury. See Carson v. American Brands. Inc., 450 U.S. 79. 84-90,

101 S. Ct. 993. 67 L. Ed.2d 59(1981).
Sixth a writ of mandamus is an appropriate remedy in aid of this Court's
jurisdiction to compel the district court to develop its record and make a ruling on
the allegations in second amended complaint alleging a conspiracy to cover-up
petitioner's memorandum of law with attach contract consent agreement dated
September 30, 2012 with intent to deprive petitioner of his federal constitutional
right to an adequate pre-deprivation and post-deprivation hearing procedure to
present his objections and be heard that he met his burden of proof to have the
2016 judgment vacate. App. 10a 33a; 50a-75a; 77a-120a.; 133a-185a. Abbott v.
Perez. 138 S. Ct. 2305, 2324-2327(2018); Reeve v. Sanderson Plumbing Company,

7

Inc., 530 U.S. 133,140-143(2000)(citing Mcdonnel Douglas Compav, Inc, v. Green.
411 U.S. 792, 802(1973). The writ of mandamus is an appropriate remedy in this
Court because the court of appeals fail to take corrective action to compel the
district court to develop its record and making findings because the orders were
issued in manifest bad faith to insulate its orders from meaningful appellate review
leaving petitioner without an adequate remedy on appeals. App. la-7a; 133a-231a.
See In re United States. 138 S. Ct. 452. 453(2018).
II.

FACTUAL BACKGROUND
This case arises out of petitioner filing a 42 U.S.C. statue 1983 action in federal
district court alleging that state court officials acting under color of law participation
in a joint concerted agreement to conspire with Defendant's attorneys with intent to
deprive petitioner of his federal constitutional rights to procedural due process of
law to present his objections and be heard at a February 7, 2019 hearing agreeing
that nothing needed to be done with the court files and that the court lacked
jurisdiction over two rule 60(b) motions not disposed of on appeal to cover-up the
October 20, 2018 telephone calls between petitioner and the original state court
judge by and through his law clerk that the 2 rule 60(b) motions were not concluded
on appeal leaving the court to hold a hearing on the motions. App. 50a-73a. This
was also an agreement to cover-up petitioner's Memorandum of Law with attached
contract consent document, filed in state circuit court on February 4, 2019 which

8
met his burden of proof that the prior 2016 judgment was obtain by extrinsic fraud
on the court by Defendant's attorneys with intent to deprive petitioner of federal
constitutional right to procedural due process to pre-deprivation and post­
deprivation hearing procedure to present his objection and be heard to later rule
the court lack jurisdiction over the 2 rule 60(b) motions and petitioner fail to meet
his burden of proof to vacate the 2016 judgment. App.50a-73a; 110a-120a.

And

that in furtherance of the agreement in the post-deprivation hearing proceeding
state court official tacitly agreed with Defendant's attorneys to shift the burden of
proof from petitioner to Defendant's attorneys to agree that petitioner are raising
the same facts, theories and arguments already ruled on by stating " Defendants
have not highlighted any portions of the record this court may have misunderstood,
failed to fully consider, or perhaps failed to rule on.

Accordingly the motion to

alter/amend judgment is denied" with intent to deprive petitioner of federal
constitutional right to due process of law to an adequate procedure to present his
objection and be heard. App. 36a-42a; 50a-73a; 93a-108a.
The record in the district court demonstrates that the above factual allegations
of a conspiracy to cover-up the two telephone calls of October 20, 2018 in the
second amended complaint were not taken as true as required at the motion to
dismiss stage but simply rejected on the ground that no record exist in the state
court files that the court issued such a decision that the two rule 60(b) motions
remained open or that this communication even occurred. App. 10a-33a.

Thus, the

9
district court records demonstrates that it misapplied'Ashcroft v.-lqfaalr556 U:S.-662.129 S.Ct. 1937. 1951-1952(2009)(citing Bell Atl. Corp. v. Twomblv. 550 U.S. 544.127
S. Ct. 1955,1963-1974(2007) standard pleading which does not require this heighten
pleading of a probability. And was adopted by the district court which overruled
petitioner's objections and refused to discuss the objections further and refused to
issue an order for certification for interlocutory appeal on the issue whether he met
the Iqbal and Twomblv standard on a controlling question of law. App. 10a-33a;
156a-185a.

The record in the district court also shows that the court issued its

orders arbitrarily in manifest bad faith to insulate its orders from appellate review by
ruling that petitioner's pleadings allegations challenges of a conspiracy to violate his
federal constitutional rights was simply challenging a claim for fraud on the court
without developing its record nor made finding of petitioners allegations in the
complaint which alleges: that state court official reach an agreement with
Defendant's attorneys that "nothing else needed to be done with the court files" to
conspire against him to cover-up his Memorandum of Law with attach contract
consent agreement, filed on February 4, 2019 which met his burden of proof to
vacate the 2016 judgment with intent to later rule that petitioner fail to meet his
burden of proof to violate petitioner's federal constitutional right to due process of
law to an adequate pre-deprivation procedure to present his objections and be
heard. App. 26a-30a; 50a-75a; 110a-120a.

And allege that in furtherance of the

conspiracy agreement shift the burden of proof from petitioner to Defendant's

10
attorneys with intent deprive petitioner of his federal constitutional right to an
adequate post-deprivation hearing procedure to present his objection and be heard.
App. 36a-41a; 50a-75a. The district court denied petitioner relief finding fraud on
the court as the basis to dismiss the action without developing the record or made
findings of the above plausible allegations of a joint concerted participant conspiracy
agreement to violate petitioner's federal constitutional rights was therefore wholly
arbitrarily made in manifest bad faith to insulate its orders from appellate review.
App. 10a-33a.
REASONS FOR GRANTING THE PETITION
I.

The Fourth Circuit Decisions Denying The Petitions For Writ Of Mandamus
Are Wrong Because The Decisions Conflicts With Cheney And Other Courts Of
Appeals Precedents And Involves Important Federal Questions About The Scope
Of Mandamus Review.
On March 23, 2021 the Fourth Circuit denied petitioner's motions for leave to file a
first and second amended petition for writ of mandamus in two separate orders
which conflicts with this Court's precedent and other court of appeals precedents by
using an inquiry that is less than the Cheney's required three prong mandate for
issuance of the writ standard because it: (1) fail to consider that the district court's
rulings were a clear abuse of discretion when the district court overruled his
objections and refused to discuss petitioner's objections further; and (2) fail to
consider that the district court failed to develop its record to make necessary
findings and rulings on the allegations in the second Amended complaint were
arbitrary rulings made in manifest bad faith to insulate its orders from appellate

11
review leaving petitioner without an adequateremedy on'appeal which were thenthe reasons asserted in petitioner's petitions as grounds for issuance of the writ.
App. 5a-7a.;10a-33a; 215a-231a.

The Fourth Circuit using a standard that is less

than Cheney v. U.S. District Court for D.C.. 542 U.S. 367. 380-381,124 S. Ct. 2576.
159 L. Ed.2d 459(2004) required three prong test wrongly rule that petitioner
"jimmie Washington petitions for a writ of mandamus, alleging that the district court
has unduly delayed acting on his 42 U.S.C. statute 1983 action. He seeks an order
from this court directing the district court to act. Our review of the district court's
docket reveals that the district court dismissed Washington's second amended
complaint on January 28, 2021. Accordingly, because the district court recently
decided Washington's case, we deny the mandamus petition and amended
mandamus petition as moot." App. 5a.

The Fourth Circuit then on the same day

after denying the petition and amended petition for writ of mandamus ruled in a
separate order on petitioner's pending second amended petition for writ of
mandamus denying it on the ground as stated that "After the district court entered
judgment and denied post-judgment relief in the underlying matter, petitioner filed
a notice of appeal in the district court and a motion for leave to file a second
amended mandamus petition in this court. The motion for leave to file a second
mandamus petition is denied without prejudice to petitioner's appeal in this case."
App. 6a.

However, petitioner argues that, based upon the petitions the Cheney v.

U.S. District Court for D.C.. 542 U.S. 367, 380-381.124 S. Ct. 2576,159 L. Ed.2d

12
459(2004), three part inquiry were meTby petitioner's first and second amended
writ of mandamus petitions but as clearly shown by the Fourth Circuit two orders
denying his petitions used a standard that is less than the Cheney's mandate three
prong standard by "failing to consider that the petitions were not simply seeking an
order from the Fourth Circuit to compel the district court to act on a delayed rulings
on his second amended complaint still pending seeking a writ of mandamus petition
before the district court made any ruling but rather was now challenging the district
court's rulings on his second amended complaint and its refusal to issue an order for
stay and certification for interlocutory appeal when the criteria were met; and
overruled his objections and refusal to discuss petitioner's objections further was a
clear abuse of discretion ; and alleging that the district court issued its orders
arbitrarily in manifest bad faith to insulate its orders from appellate review by failing
to develop its records of the allegation in his second amended complaint of a
conspiracy to cover-up his Memorandum of Law with attach contract consent
agreement with intent to later rule he fail to meet his burden of proof. Then to
further the conspiracy shift the burden of proof from petitioner to Defendant
attorneys to violate his constitutional rights rule arbitrary in bad faith that
petitioner's allege simple a fraud on the court claim defeats a conspiracy claim"
were the entire basis petitioner sought mandamus relief. App. 10a-33a; 50a-75a;
110a-120a; 133a-229a.

The Fourth Circuit orders conflicts with this court and

other court of appeals precedents because even though the district court acted the

13

right; (2) no adequate remedy to obtain the relief; (3) writ is appropriate under the
totality of circumstances. App. 4a-7a; 10a-33a; 133a-229a. 542 U.S. at 380-381.
First the petitions alleged that petitioner had a clear and indisputable right to file
objections to the magistrate's report and recommendations and a clear and
indisputable right to a full de nova review of his objections of the magistrate judge
report and recommendations under Fourth Circuit precedents, Sample v. Ballard.
860 F.3d 266. 271-273(4th Cir. 2017)(quoting U.S. v. George. 971 F.2d 1113,11171118(4th Cir. 1994)(same). citing 28 U.S.C. statute 636(b)(1), Fed. R. Civ. P. 72) raising
the issue that the magistrate failure to rule on portions of the allegations in his
second amended complaint and fail to develop the record of these allegations in
manifest bad faith to insulate its order from appellate review. And that the district
court acting in manifest bad faith to insulate its order from appellate review
overruled his objections and refused to discuss petitioner's objections further was a
clear abuse of discretion leaving petitioner without an adequate remedy on appeal
without a well develop record thwarts appellate jurisdiction to review his claims
under its precedents which held that " We believe that as part of the obligation to
determine de nova review any issue to which proper objection is made, a district
court is required to consider all arguments directed to that issue, regardless of
whether they were raised before the magistrate...... The district court cannot
artificially limit the scope of its review by ordinary prudential rules, such as waiver,

14
provided that proper objection to the magistrate's proposed finding or conclusion
has been made and the appellant's right to de nova review by the district court has
been established." App. 10a-33a; 77a-120a;133a-229a. Sample v. Ballard. 860 F.3d

266. 271-273(4th Cir. 2017); U.S. v. George. 971 F.2d 1113.1117-1118(4th Cir. 1992).
28 U.S.C. statute 636(b)(1), Fed. R. Civ. P. 72.

Thus under the above cited

precedents, statute and rule petitioner has a clear and indisputable right to full de
nova review of his objections and a clear and indisputable right to a ruling on his
allegations in his complaint of a conspiracy to violate his constitutional right claims.
App. 50a-120a.

Therefore, under Cheney the petition met the requirement but the

Fourth Circuit Court of Appeals wrongly fail to analyze the Cheney's first and second
prongs in the petitions. App. 4a-6a; 133a-229a. Cheney v. United States District
Court for D.C., 542 U.S. 367. 391.124 S. Ct. 2576,159 L. Ed.2d 459(2004)(same).
Second, the Fourth Circuit fail to analyze the first and second amended petitions
request for the writ of mandamus under the third factor of the Cheney's standard
whether the writ was appropriate under the exceptional totality of circumstances
of the case as a whole. App. 4a-7a; 133a-229a. Cheney v. United States Dist. Court
for D.C., 542 U.S. at 391(same).

This Court has repeatedly made it clear that when

it is also shown the lower court has clearly abused its discretion in a
case properly before it the writ is an appropriate remedy when a lower court acts in
a manner that thwarts appellate jurisdiction over a case and the petitioner has no
alternative adequate remedy to be granted his rights to the relief he seeks in

15
petition. Cheney v. United States District Court foTDX., 542~U:Sr367r380-38TrT24S. Ct. 2576,159 L. Ed.2d 459(2004)(citing cases).

The first and second amended

petition for writ of mandamus shows that the Fourth Circuit's March 23, 2021 orders
denying mandamus are wrong because the petitions met the Cheney's third
appropriate of the writ exceptional irreparably injury prerequisites because they
sufficiently demonstrates that the Fourth Circuit's jurisdiction is frustrated to review
whether he met the factual pleading standard under, Ashcroft v. Iqbal, 556 U.S. 662,
129 S. Ct. 1937, 1951-1952(2009)(citing Bell Atl. Corp. v. Twomblv, 550 U.S. 544, 127
S. Ct. 1955,1963-1974(2007)), of a plausible pleading of a conspiracy to violate
petitioner's federal constitutional right claims based on the existing district court
record and mandamus would be the appropriate remedy to intervene to compel the
district court to develop its record and rule on the portions of the second amended
complaint not yet ruled on because the Magistrate Judge arbitrarily only ruled on
the allegations of a claim for fraud on the court and the district court overruled his
objections and refused to discuss petitioner's objections further; refused to grant a
stay of the proceeding pending appeal and denied certification for interlocutory
appeal. App. 10a-33a; 50a-120a. Cheney v. United States Dist. Court for D.C., 542
U.S. 367. 380-381, 391,124 S. Ct. 2576,159 L. Ed.2d 459(2004)(same).

The orders

of the Fourth Circuit denying mandamus, stay of the appeal proceeding and
injunction relief shows that petitioner have no adequate remedy on appeal to be
granted the relief he seeks on his conspiracy to violate his federal constitutional

16
right claims without certiorari or maridamus'relief from thisGourttocompel-the
district court to perform its duty to conduct a de nova review and to rule on the
portions of his objections that " it overruled and refused to discuss further" and in
manifest bad faith fail to develop its record thwarts appellate jurisdiction to review
its order satisfies the third prong of the Cheney's standard for appropriate of the
writ under the exceptional totality of circumstances of the test. App. la-7a; 10a-33a;
50a-120a. Cheney v. United States District Court for D.C., 542 U.S. 367, 380-381,
391,124 S. Ct. 2576,159 L. Ed.2d 459(2004)(citing Roche v. Evaporated Milk Assn.,
319 U.S. 21. 25-26, 63 S. Ct. 938, 87 L. Ed. 1185(1943); Hollingsworth v. Perry, 558
U.S. 183,130 S. Ct. 705, 710-715,175 L. Ed.2d 657(2010)(finding irreparable injury
where district court adopt local rule in violation of federal law).

This Court in, In Re

United States. 138 S. Ct. 452,453(2018), denied stay pending a petition for writ of
mandamus on the grounds that adequate relief could be granted in the court of
appeals because " the Ninth Circuit denied mandamus twice it did so without
prejudice. And the court basis for denying relief rested in large part on the early
stage of the litigation, the likelihood that plaintiffs' claims would narrow as the case
progressed, and the possibility of attaining relief through ordinary dispositive
motions." Id. However, in petitioner's case in this petition the circumstances are to
the contrary because the Fourth Circuit denied mandamus twice because it used a
standard that is less than the Cheney's three prong test; and practically in effect
denied injunction and stay of the appeal leaving petitioner irreparably injured

17
without an adequate remedy on appeal'to ger re I i efrAp p: la ~7a; ■ T33 a-229a rCheney
v. United States Dist. Court for D.C.. 542 U.S. 367. 391. 124 S. Ct. 2576. 159 L. Ed.2d
459(2004)(same); Carson v. American Brands, Inc., 450 U.S. 79, 83-90,101 S. Ct. 993,
67 L. Ed.2d 59(1981); In Re United States. 138 S. Ct. 452. 453(2018).

First

petitioner argues that his circumstances are exactly like the case of, Cheney v.
United States Dist. Court for D.C., 542 U.S. 367. 391, 124 S. Ct. 2576. 159 L. Ed.2d
459(2004). in that this Court held that the court of appeals fail to make inquiry of all
three factors required to issue the writ, thus vacated and remanded to the court of
appeals in the first instance to make the necessary inquiry. Id.

Petitioner argues

that his circumstances are also akin to this Court's decision in, In re United States.
138 S. Ct. 443(2017). where the Court granted mandamus or in the alternative
certiorari reaching a conclusion that a stay should have been granted. Vacated and
Remand for the court of appeals to take action for the district court to rule on the
issue. And consider to issue an order for certification for interlocutory appeal. But
ruled that the government should be given the opportunity to compiled the record
before being compel to do so. Id.

This Court in, Camp v. Pitts. 411 U.S. 138, 139-

143, 93 S. Ct. 1241, 36 L.Ed.2dl06(1973) and Citizens to Preserve Overton Park, Inc.
v. Volpe, 401 U.S. 402.408-421. 91 S. Ct. 814, 28 L. Ed.2d 136(1971). are consistent
with above the precedent to determine whether the appeal would provide and
adequate remedy for review where it was held that a reviewing court must have an
adequate record for review and if the challenge ground for review is

18
that the order was issued arbitrarily or in badTaith'frustratesTeviewthataxourt
should compel that the record be supplemented and bad faith and arbitrary conduct
must be considered as part of court decision to order that record be develop,
supplemented and make additional findings when the interest of justice is served.
Id.

In re Clinton, 973 F.3d 109,113-117(D.C. Cir. 2020). that court reached a

contrary result under the second prong of the Cheney test because It found that bad
faith was not relevant to the inquiry of adequacy or reasonableness of agency search
to discover documents related to case because all documents and records were
already complied with and finding the district court clear abuse its discretion under
D.C. precedent and rules to order discovery under the circumstances. But held that
bad faith would be relevant to the individuals who conducted the search. In re
Clinton, 973 F.3d at 115.

The Fourth Circuit itself has held that bad faith would be

appropriate inquiry in a petition for writ of mandamus case in, In re Trump.. 958
F.3d 274, 285(4th Cir. 2020)(rehearing en banc), relying on decisions from this Court
but found that the standard was not met in the case. The second dissenting opinion
disagreed finding that the district court's order was issued to insulate its ruling from
appellate review on the ground that the criteria for certification for interlocutory
appeal were met. In re Trump, 958 F.3d at 313-322.

Petitioner, argument before

the Fourth Circuit was the same as the majority and dissent on the two separate
issues of bad faith and arbitrary issued its orders to insulate it from appellate review
on his federal constitutional right claims and certification for interlocutory appeal.

19
App. 133a-T45a; 2T5ar229aL

fheT>:CrCircuit wasfacedwith-mandamus similar-to-

Washington's petitions on constitutional right grounds, In re Al Baluchi, 952 F.3d
363, 368-372(D.C. Cir. 2020).held that if the site was destroyed mandamus was
available showing irreparable injury because the evidence would no longer exist and
without an adequate remedy on appeal. And further held if the favorable evidence
was destroyed was required to be preserve by statute or case laws where no
available substitute record was available on appeal it would violate his right to a fair
trial under the U.S. Constitution. Id.

The above cited authorities support petitioner

argument that he satisfies the second and third prong of the Cheney's test of no
adequate remedy and the writ is appropriate. Cheney v. United States Dist. Court
for D.C., 542 U.S. 367, 380-381. 124 S. Ct. 2576.159 L. Ed.2d 459(2004).
Thus based on Washington's request for mandamus relief and above authorities
supports petitioner argument that the Fourth Circuit denied Washington's petitions
based on a standard that is less than Cheney's three prong inquiry and conflicts with
this Court's precedent and other court of appeals precedents as cited above.
App. la-7a;133a-145a; 146a-229a. Cheney, 542 U.S. 367. 380-381. 391(2004).
Thus, If the Cheney's three part inquiry is to remain this Court's standard in
U.S. Federal Courts this Court should grant Washington's petition to examine
the detrimental consequences of the Fourth Circuit decisions and to answer an
important federal question of the scope of review for future litigants seeking
mandamus to be denied relief by decisions by the Fourth Circuit when it applies a

20
•standardthat-isinconflictwiththisGourtand-othercourt-of-appeals.-Ghenevv.
United States District Court for D.C.. 542 U.S. 367. 380-381. 391.124 S. Ct. 2576.159
L. Ed.2d 45992004) ;ln re Al Baluchi. 952 F.3d 363. 367-372(D.C. Cir. 2020).

II.

The Fourth Circuit Decision Denying Rehearing Has The Practical
Effect of Denying Stay and Injunction Relief Making Certiorari
An Appropriate Remedy For Immediate Relief In This Court
On May 4, 2021 the Fourth Circuit Court of Appeals issued orders denying

petitioner motion for rehearing mandamus under its local procedural rule issued
by the clerk of court by the direction of the panel and issued a separate order
denying appellant's motions for rehearing stay of the appeal on the ground that:"
Appellant's motion to reconsider this court's order denying his motion to suspend
the informal briefing schedule and extending the deadline for his informal opening
brief to May 14, 2021, is denied as moot in light of this court's order denying his
petition for rehearing in No. 21-1045, In re: Washington. The due date for
appellant's informal opening brief is extended to May 28, 2021."

Petitioner,

seeks certiorari because the Fourth Circuit's orders has the practical effect of
denying stay and injunction relief requested in his motions for rehearing
regardless of the labels it attaches to its orders based on its effect to his cases.
App. la-7a; 190a-192a. Abbott v. Perez. 138 S. Ct. 2305.. 2319-2321(2018): RotaMcLarty v. Santander Consumer USA. Inc., 700 F.3d 690. 698-699(4th Cir. 2012).

21
FirstT
Defendant's attorneys from any future repeated misconduct with court officials to
conspire against him to deprive him of his federal constitutional rights to present
his objections and be heard concerning his Memorandum of Law with attached
contract consent agreement between the parties "that the second hospital where
he was admitted would be the decision-maker to settle the dispute of the source
of petitioner's CVA bodily injuries and future medical needs" filed in state court on
February 4, 2019. App. 110a-129a;190a-192a. (2) to enjoin the district court's
orders to prevent continuous irreparable injury due to (a) the district court repea­
ted misconduct in its rulings of his federal constitutional claims and denial of his
motions for stay and certification for interlocutory appeal arbitrarily issued in
manifest bad faith to bar certification when the criteria were met (b) overrule his
objections and refuse to discuss them further deprived him of right to full de nova
review of his constitutional claims from appellate review without a well develop
record (c) limit its finding in the complaint were a continuation of the patterns of
misconduct in state court which continues to prevent the opportunity in the appeal
process to settle contract dispute in his Memorandum of law with attach contract
consent agreement prior to the appeal and continues to cause irreparable injury.
App. 54a-75a; 110a-129a; 190a-192a. Los Angeles v. Lvons.461 U.S.
95.99-113A. 103 S. Ct. 1660. 75 L. Ed.2d 675(1983); Carson v. American Brands. Inc.
. 450 U.S. 79. 85-90.101 S. Ct. 993. 67 L. Ed.2d 59(1981).

22
"Second7ttfe'FourthXircmts'ordersxlenying rehearing are immediately
appealable because petitioner would suffer irreparable injury by the repeated
adverse rulings by the Fourth Circuit (1) denial of petitioner's petitions for writ of
mandamus to compel the district court to develop its records; (2) petitioner might
lose the opportunity to effectively challenge denial of stay and injunction. First,
he might lose the opportunity to settle the contract consent agreement terms;
and he might lose the opportunity to challenge his constitutional right claims
raising the contract consent agreement issue without a well develop record
because mandamus has been denied twice on the same issues and the Fourth Circuit
practically in effect denied stay and injunction based on the contract issues seeking
to enjoin the district court orders App. la-7a; 144a-153a;190a--192a. Matter of FortyEight Insulations. Inc., 115 F.3d 1294,1300(7th Cir. 1997); Carson v. American Brands,
Inc.. 450 U.S. 79. 86-90. 101 S. Ct. 993. L. Ed.2d 59(1981).
The Third Circuit rulings in the above cited case of Matter of Forty-Eight
Insulations. Inc, is directly on all fours with the issues raised in the Fourth Circuit as
justification for granting a stay and injunction and directly related to petitioner's
right to enforce the contract consent agreement to preserve the status quo. App.
190a-192a.

Petitioner argued that he had a strong probability to succeed on the

merit to get a reversal of the district court orders because the court overruled his
objections that the magistrate judge only ruled on issues of " fraud on the court."
He alleged that the Defendant's attorneys reached an agreement with

23
state couiTofficia1rttrar"nothing*needed to be done with the court files withintent to conspire against him to cover-up the favorable evidence which entitle to
relief that he contacted the original state court circuit judge by and through his
law clerk per two telephone calls on October 20, 2018 as instructed by the judge
letter and was told the two rule 60(b) motions remained open and the court had
jurisdiction over the 2 rule 60(b) motions for a hearing.

Thus the conspiracy

agreement petitioner alleged was to cover-up the two telephone calls and his
Memorandum of law with attached contract consent agreement meeting his burden
of a particularized showing that the original February 5, 2016 judgment was obtained
by the Defendant's attorneys extrinsic fraud upon the court.

Allege the conspiracy

agreement between the second state court judge and Defendant's attorneys was
to later rule the court lack jurisdiction and that he fail to meet his burden of proof to
deprive him of his federal constitutional right to procedural due process of law to
a meaningful pre-deprivation and post-deprivation procedure to present his
objections and be heard that 2 rule 60 motions remain viable; and that he
filed a memorandum of law with attached contract consent agreement meeting his
burden of proof. And in furtherance of the conspiracy shift the burden of proof from
petitioner to the Defendant's attorneys to tacitly agree that petitioner was raising the
same arguments already raised and rejected by the court with intent to violate his
constitutional right to a meaningful post-deprivation procedure to present his object­
ions and be heard." App.54a-76;195a-197a. He request the Court to issue a stay and

24
-injunction'againstDefendant's-attorneysfutureiTiiscondtict-and-thedistrict'COurt orders
concerning his Memorandum of Law with attach contract consent agreement not ruling
on the issue and refuse to discuss the objections on the issue further to settle the
dispute of the contract would cause irreparable injury on appeal. App. 190a-192a.
Matter of Forty-Eight Insulations. Inc.. 115 F.3d at 1300-1305.

This Court in, Carson

v. American Brands, Inc., 450 U.S. 79. 83-90.101 S. Ct. 993. 67 I. Ed.2d 59(1981). held
the same as petitioner here argues concerning his Memorandum of Law with
attached contract consent agreement, filed in state court on February 4, 2019
"that the orders denying motion to enter the consent decree was immediately
appealable because petitioners would lose the opportunity to effectively
challenge an interlocutory order that denies them injunctive relief and that plainly
has a serious, perhaps irreparable consequences. First, petitioners might lose their
opportunity to settle the negotiated terms. Second "serious, perhaps irreparable,
consequences" that justifies that the order is immediately appealable under 28 USC
statute 1292(a)(1). In seeking the injunction they sought immediate restructuring
of respondents' transfer and promotional policies. They asserted in their complaint
that they would suffer irreparable injury unless they obtain that injunctive at the
earliest possible time and any delay in review the propriety of the district court refusal
to enter the decree might cause them serious or irreparable harm." 450 U.S. at 86-90.
However, the Fourth Circuit practical in effect denied petitioner request for a stay and
injunction which this Court held in Carson warrants a stay and injunction relief. App. 1

25
a-7a; 110a-129a;'190a::192a:----- Based upon the above circumstances this Gourt-s-testfor granting stay and immediate appeal in, In Re United States, 139 S. Ct. 452, 453
(2018)(citing case)(citations omitted), does not bar granting this petition but in fact
support granting the petition because here the Fourth Circuit not only denied the
writ of mandamus twice but also in practical effect denied stay and injunction relief
on the dispositive issues central to the merit of all issues of no adequate remedy on
appeal in seeking to enjoin the district court's orders to get relief without a well develop
record nor ruling would render his ability to challenge the issues effectively on appeal
and cause petitioner to suffer irreparable injury if the relief was not granted prior to
commencing the appeal process. App. la-7a; 54a-75a; 133a-183a; 190a-192a. Salazar ex
rel. Salazar v. District of Columbia. 671 F.3d 1258.1261-1267(D.C. Cir. 2012); Carson v.
American Brands, Inc.. 450 U.S. 79, 84-90.101 S. Ct. 993, 67 L. Ed.2d 59(1981).
The Fourth Circuit improperly fail to analyze the irreparable injury factor in denying relief.
App. la-7a; 54a-75a; 190a-192a. Salazar ex rel. Salazar v. District of Columbia. 671 F.3d
1258.1261-1267ID.C. Cir. 2012); Spokeo. Inc, v. Robins. 136 S. Ct. 1540.1547-1550(2016).
Third, the Fourth Circuit failure to grant a stay of the appeal process and injunctive
relief against the district court orders will force the petitioner's to proceed in the appeal
process without an adequate remedy and suffer irreparable injury if this Court does not
intervene by granting certiorari to allow petitioner's right to settle the dispute of the
contract and damages which he continues to lose the opportunity to settle due to the
Fourth Circuit repeated failure to grant mandamus to compel the district court to

26
-develop-itS’record-and-toTule'onhts objections-which-were overruled~andrefusedto
discuss his objections further. App. la-7a; 10a-33a;190a-192a. And the practical
effect of the Fourth Circuit denial of stay and injunction which continues to cause
petitioner to suffer irreparable injury due to loss of opportunity to settle contract
consent agreement dispute between the" parties" because the Fourth Circuit fail to
enjoin the district court orders to grant a stay and injunction relief. App. la-7a; 110a129a; 190a- 192a. In Re United States. 139 S. Ct. 452. 453(2018Hciting Holliinesworth v.
Perry. 558 U.S. 183.190.130 S. Ct. 705.175 L. Ed.2d 657(2010); Los Angeles v. Lyons.
461 U.S. 95. 99-113A.103 S. Ct. 1660. 75 L. Ed.2d 675(1983); Carson v. American
Brands. Inc., 450 U.S.79. 83-90.101 S. Ct. 993. 67 L. Ed.2d 59(1981); SAS Institute. Inc.
v. World Programming Ltd.. 952 F.3d 513. 525(4th Cir. 2020); Salazar ex rel. Salazar v.
District of Columbia. 671 F.3d 1258.1261-1267ID.C. Cir. 2012).
CONCLUSION
For the forgoing reasons, petitioner Washington respectfully requests that the Court
grant this petition for certiorari.
Respfec
S/\

August 1, 2021

ted,

lirh Washington
209 Signet Drive
Eutawville, S.C. 29048
WTS Transport, LLC@yahoo.com
803-496-4655
Petitioner, Pro Se

■*

27
CERTIFICATION

Petitioner, do hereby certify that the documents submitted complies with the typeVolume limitations for filing a petition for writ of certiorari which consist of 26 pages double
space-type words on a font size 12 letters.

s/.
Ji/i Washington
209 Signet Drive
Eutawville, S.C. 29048
WTS Transport, LLC@yahoo.com
803-496-4655
Petitioner, Pro Se
August 1, 2021

28
No-21~
IN THE
SUPREME COURT OF THE UNITED STATES

)
Jim Washington,
)
Petitioner,
)
v.
)
)
Trident Medical Center, LLC )
Respondent. )

Civil Action No.

PROOF OF SERVICE

I, certify that Petitioner's Petition for Writ of Certiorari was served on Respondent's attorneys.
A copy was serve by mailing in a prepaid wrapper VIA U.S. MAIL with return receipt requested
to the following addresses:
Mitchell Brown, Esquire
Blake T. Williams, Esquire
Nelson Mullins Riley & Scarborough LLP
P.O. Box 11070
Columbia, S.C. 29211
803-799-2000
David H. Batten, Esquire
4141 Parklake Ave., Suite 350
Raleigh, N.C. 27612
919-439-2221
Respondent Attorneys.

August 1, 2021

sAL

mi

tfim Washington
209 Signet Drive
Eutawville, S.C. 29048
WTS Transport, LLC@yahoo.com
803-496-4655
Petitioner, Pro Se

